k±*m , ,

* V.,

2°-^

No.

IN THE
SUPREME COURT OF THE UNITED STATES

EMIL SVRCINA, KARL O. DICKS, BANNER FANENE
PETITIONER (S)

FILED
JAN 05 2021

VS.

SCOTT NAGO, CHIEF ELECTION OFFICER etal.
STATE OF HAWAII OFFICE OF ELECTIONS
GLEN TAKAHASHI, in his official capacity as C&C
Honolulu city clerk
CLARE E. CONNORS, Attorney General State of
Hawaii et al

' j>UpfeEM(EFCOHURTLM qK I

RESPONDENT(S)

PETITION FOR A WRIT OF CERTIORARI
Complaint SCEC-20‘0000721 filed Hawaii Supreme Court
Supreme Court State of Ha waii
Chief Justice Mark E. Recktenwald
Petition for Writ of Certiorari

Emil Svrcina
94*570 Poloahilani st.
Millilani, HI. 96789
ph.(808)256-6473
emil_svrincina@hotmail.com

pro se

Karl Orlando Dicks Banner Fanene
1025 Uluwale st.
329 California Ave.
Wahiawa. HI. 96786 #407
ph. (808)478-8682
Wahiawa, HI. 96786
karld@hawaiiantel.net

suri juris

ph. (808)622-7780
banner4senate@gmail.com

pro se

January 5, 2021
Hooee Htvafi

ft

<3

QUESTIONS PRESENTED

Article II of the Constitution provides that "Each State shall appoint [electors for
President and Vice President] in such Manner as the Legislature thereof may
direct.” U.S. Const. art. II, § 1, cl. 2 (emphasis added). That power is “plenary,” and
the statutory provisions enacted by the legislature in the furtherance of that
constitutionally-assigned duty may not be ignored by state election officials or
changed by state courts. Bush v. GoreC'Bush II”),531 U.S. 98, 104-05 (2000). Under
both the Fifth and Fourteenth Amendments to the U.S. Constitution, neither the
federal government nor state governments may deprive any person “of life, liberty,
or property without Due process of law”
These questions are therefore presented;
Question 1.
Did the Hawaii Supreme Court violate rights and due process under the First and
Fourteenth Amendment of the U.S. Constitution by dismissing with prejudice
Complaint SCEC-20-0000721, on the basis of laches?
(a) Is this a foreclosure for any opportunity for Petitioners to seek retrospective and
prospective relief and enforcement for ongoing constitutional and all other
statue violations in elections?
Question 2.
Was Petitioners Due Process violated when a motion for reconsideration, which
was timely, filed 12/17/20, 9 days after motion to dismiss, was denied?
Complaint SCEC-20-0000721 had already been marked “CLOSED”,

and an “S” which signifies judgment has been satisfied prior to 12/17/20. Hawaii
Rules of Civil procedures, Rule 40 allows 10 days to file motion for
reconsideration after order for dismissal is issued.
(a) Did State of Hawaii Attorney General violate Due Process by granting
permission to Chief Election Officer to certify results of Hawaii 2020 election
12/9/20 immediately upon Hawaii Supreme Court issued order for dismissal?
HRS§11-156 If there is an election contest these certificates shall be delivered only
after a final determination in the contest has been made and the time for an appeal
has expired. [L 1970, c 26, pt of §2; am L 1986, c 305, §4; am L 2012, c 34, §L' am L
2014, c 139, §1]

Question 3
Did the State of Hawaii legislature violate the Federal Constitution, U.S. Code Title
52 Voting and Elections, and the 2010 Plain Writing Act (Public Law 111-274) by
enacting legislation passed in 2019 as Act 136, “Vote By Mail”?
Act 136 is the “new” guide to conduct all State of Hawaii and all federal elections
pursuant to Article I, and Article II of the U.S Constitution. Hawaii’s Act 136, ‘Vote
by Mail” in its final version of has 75 of the 96 pages that are entirely incoherent,
and crossed out or lined out.

ii

PARTIES TO PROCEEDINGS
I.

An Original Complaint SCEC-20-0000721, State of Hawaii Supreme
Court, In connection with multiple violations of U.S. Constitution, federal
and state statues, federal and state guidelines, rules, procedures for
federal, state, and local elections. Filed November 23, 2020, in compliance
with Title 2 ELECTIONS. HRS§11-172, §11-173.3, §11-174, §11-175.
Note; All parties do not appear in caption of case on the cover page. This is
a list of parties who were a party to Complaint SCEC-20-0000721.

Petitioner(s);
Emil Svrcina, Candidate for State of Hawaii Representative District 37.
Karl O. Dicks, Candidate for Mayor C&C Honolulu Hawaii.
Banner Fanene, Candidate for State of Hawaii Senator District 22.
Klean House Hawaii (a group of 30 or more registered voters State of
Hawaii). Each individual of 58 registered voters signed individual affidavits,
which were part of original filing, State of Hawaii Supreme Court.
Resnondent(s);
Scott T. Nago, in his capacity as Chief Elections Officer for State of
Hawaii, State of Hawaii Office of Elections, and Glen Takahashi, in his
capacity as City Clerk of City and County of Honolulu Hawaii.
Note; Clare Connors AG State of Hawaii is added to this caption of case.

/i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

2
3,4,5,6

REASONS FOR GRANTING THE WRIT.

7,8

CONCLUSION

9

INDEX TO APPENDICES
Description

Date filed

APPENDIX A. Original Proceeding

11/23/20

APPENDIX B. Motion to Dismiss

11/27/ 20

APPENDIX C. Original Proceeding Dismissed

12/8/20

APPENDIX D. Motion for Reconsideration

12/17/20

APPENDIX E. Motion Denied

12/22/20

TC

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner(s) respectfully prays that a writ of certiorari be issued to review the
judgment below.
OPINIONS BELOW
The opinion of the highest state court to review the merits appears as .pdf at
http7/iimspssl.courts.state.hi.us:8080/eCourt/ECC/ECCDisclaimer.iface;isessionid=
2775BA0398E310C0D2B20158D7457FEE
APPENDIX A. SCEC-20-0000721, Original Election Complaint (attached)
APPENDIX B. Motion to Dismiss (attached)
APPENDIX C. Motion to Dismiss Granted (attached)
APPENDIX D. Motion for Reconsideration (attached)
APPENDIX E. Motion Denied (attached)

JURISDICTION
From State of Hawaii Supreme Court;
A copy of highest state court decided 12/8/ 2020 decision appears at a copy of order
to grant motion to dismiss. APPENDIX C. (attached)
A copy of highest state court decided 12/22/ 2020 decision appears at a copy of order
to motion for reconsideration denied. APPENDIX E. (attached)
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257 (a).

l

FEDERAL CONSTITUTIONAL PROVISIONS INVOLVED
First Amendment, Fourth Amendment, Fifth Amendment
Fourteenth Amendment, Equal Protection
FEDERAL STATUTES
U.S.C. Title 52, VOTING and ELECTIONS, Help America Vote Act
Amdtl4.S1.4.3.3.3.1.2 Partisan Gerrymandering
Amdtl4.Sl.4.3.3.3.1.1 Dilution of the Right to Vote
Public Law 111 - 274 - Plain Writing Act of 2010
Title 18, U.S.C., SECTION 242 The Color of Law
STATE CONSTITUTION. STATE LAWS. STATUES
Articles 1§5, Due Process, Article 2 Suffrage and Elections,
Article 16 (4), Oath of office,
Article 13, Plain language, Title 2 Elections
CHAPTER 11
HRS§11'17, Removal of names from register, (Chief Election Officer Admission
Video, Hawaii Public Radio, Scott Nago approximately 100000 names ineligible)
§11-155, §11-156, Election certification
CHAPTER 12
HRS§12-21,Official party ballots. HRS§12-4l(b) (non partisan discrimination)
CHAPTER 16 TNEWl VOTING SYSTEMS
HRS§16-l(l), It shall secure to the voter secrecy in the act of voting;
HRS§16-1(2), (nonpartisan)
HRS§1612(2), HRS§16-12(4), HRS§ 16-41, HRS§ 16-43, HRS§ 16-45, HRS§ 16-46
(no security, chain of custody, no paper trail, no observers etc.)
CHAPTER 19 ELECTION FRAUDS
HRS§19-1 Election Frauds, HRS§19-3(8), HRS§19-4, HRS§19-6
HAWAII APPELLATE RULES, Rule 40; motion for reconsideration

2

STATEMENT OF THE CASE
The Hawaii Supreme Court has jurisdiction over all election matters under
HRS§11-172, 11-173.5, 11*174.5, 11-175. Said statutory provisions provide, in
pertinent part, that inter aila, a contest to results to the instant general election
shall be filed for cause with this Supreme Court of the State of Hawaii not later
than the twentieth day following the general election being contested. Complaint
filed in accordance with this and in a timely manner.
Complaint avers that the general election, conducted on November 3, 2020, and
primary election August 8, 2020 in their entireties in the State of Hawaii were
contested by this same complaint process. The basis and foundation of complaint is
that multiple violations of Constitutional Provisions, Federal guidelines, procedures
and standards. Petitioners did aver that multiple violations of Hawaii Title 2
Elections and HRS Statues, and Title 3 Hawaii Administrative Rules and other
various guidelines did also occur. Petitioners therefore aver that the results of Final
Report, are not certifiable as required HRS§ 11-155 as true, credible, and correct
election results.

Petitioners aver certification audits and actions could not be

properly performed with verifiable information had been adjudicated and was
compromised in light of multiple violations, and a absence of integrity in the
election process.
Petitioners, do hereby aver and submit that the Supreme Court Hawaii did not
issue a summons to the Respondents named in SCEC-20-0000721 an election

3

complaint, and were not summoned to appear before the Supreme Court not later
than 4-30 p.m. on the tenth day after service thereof. HRS§ll-174.5(a)(b).
To date there has been no adjudication in any manner of the multiple, verifiable
violations by Scott Nago, Chief Election Officer, nor Glen Takahashi, City Clerk or
the Office of Elections, nor by the Hawaii Supreme Court.
Now comes the Hawaii Supreme Court and Attorney General Hawaii have added
additional election violations. The Supreme Court has violated all Due process by
dismissing and closing, and marking the case, SCEC-20-0000721 an election
complaint, as “judgment satisfied”. Case was marked “CLOSEDS” before time (10
days) for Rule 40, motion for reconsideration, or any other appeal process periods
had expired.
Any one individual violation or any combination of violations or the
accumulation of many violations could easily be cause or causes, such as but not
limited to, provable fraud, overages, or underages, that could cause a difference in
the election results. The complaint did set forth reasons for reversing, correcting, or
changing the decisions of the precinct officials or the election officials
The State of Hawaii, Office of Elections, Scott Nago (Chief Election Officer, et al.)
and the Honolulu County City Clerk (Glen Takahashi et al.), Clare Connors (Hawaii
State Attorney General), and Mark Recktenwald (Chief Justices of Hawaii Supreme
Court) have separately (and/or jointly) knowingly, or unknowingly violated multiple
Constitutional provisions, Federal guidelines, procedures and standards.
4

Petitioners also aver that ethical standards for the 2020 State of Hawaii Elections
have been grossly diminished.
RELIEF AND REMEDY:
Petitioners aver, and pray that due to the magnitude of violations, and lack of
action by Hawaii Supreme Court that this course of remedy may be implemented
That this Honorable United States Supreme Court issue writ of certiorari and
review merits of this case.
If deemed proper to issue a writ of mandamus to the Hawaii Supreme Court and
thereby to issue an order for Special election be ordered within 120 days of order as
provided by HRS § 11-174.5.
A) That a Special election should be the entirety of the State of Hawaii 2020
election, as a whole. It should include all candidates who properly registered for
their names to appear on the ballot, using the primary election list. Any possible
disenfranchised candidates would therefore be automatically included.
B) Hawaii Supreme Court to issue a writ of mandamus to Chief Election officer
State of Hawaii to fully implement and follow current HRS statues, and rules, and
guidelines as set out by and as per Title 2 Elections as in Hawaii Revised Statues,
without use of Act 136 “all mail in ballot”, which violates both federal and state
plain language statutes.

5

C) That the Hawaii Supreme Court shall issue writ of mandamus to the State of
Hawaii Attorney General to faithfully fulfill their duties and responsibilities,
specifically item 2.
ROLES AND RESPONSIBILITIES:
(Attorney General Hawaii)
Personally or through deputy attorneys general, the Attorney General
1. Appears for the State in civil and criminal cases when the State is a party.
2. Investigate violations of state laws, and initiates civil and criminal actions to
enforce the laws or prosecute persons who violate them.
3. Prepare legal opinions for the Governor, the Legislature, and the heads of state
departments.
4. Advises state officials on legal matters so that they may faithfully execute their
duties and responsibilities.
5. Defends and represents state officials and employees when they are sued for
actions they have taken or are about to take in connection with their state positions.

6

REASON FOR GRANTING A WRIT OF CERTIORARI

The Petitioners request for writ of certiorari and is not entered into nor shall not
be viewed lightly. This Writ is requested with full knowledge of the rarity of the few
exceptions of its award in history. Petitioners stand, and will bear a burden of lack
malice for the violations. Petitioners seek to carry forth and actively embrace the
still yet evolving rights of the people and specifically the protection of the people’s
right to vote.
The 2020 Hawaii election cycle has been a wakeup call for Petitioners as citizens
first and candidates second. It is the prayers of the Petitioners for a writ of
certiorari to be granted to honor and preserve the foundation and integrity of and to
ensure and maintain the time honored and tested Constitutional provisions in unity
with all locally legislatively accepted and adjudicated federal, state and local as
applicable guidelines for elections and voting rights shall be upheld equally and in
their entirety for all people of all the states.
Petitioners are not focused on the number of votes nor who wins or loses. Interest is
focused on the preservation of the integrity of elections. Voting integrity is the
foundation for the voices of people to be heard and gave birth of our great country.
The United States has advanced the right to vote more than any nation in history.
The legislation or making of laws rules and guidelines of individual states
collectively have advanced voting rights for many under guardianship and guidance
of the Honorable Supreme Court of the United States. There have been many
landmark speeches, and famous court battles fought in the history of the United
7

States. Petitioners recognize it is a privilege, to have the highest jurisdiction in the
United States to consider an alleged grievance seeking adjudication of election
violations. Petitioners are in lack of a desire to burden the honorable arbiters of this
request with a history of landmark speeches and court battles. The State of Hawaii,
2020 elections has advanced a new level of perceived election violations and has
been noted by Petitioners multiple complaints and grievances which are of record of
Hawaii Supreme Courts. Petitioners pray indulgence of the honorable Supreme
Court of the United States to grant and issue a writ of certiorari for complaint
SCEC -20-0000721 which was timely filed in the Hawaii Supreme Court November
23, 2020 in accordance with HRS§11-172.
Petitioners pray that laws shall prevail.

8

■i

‘

CONCLUSION
Petitioners pray for writ of certiorari should be granted.
Respectively submitted,
Emil Svrcina
94-570 Polohilani St.
Mtililani, HI. 96789

Vi/oZ/2,
Date

SyrxLm^
Print

J

^ign

Karl Orlando Dicks
1025 Uluwale St.
Wahiawa, HI. 96786
Print
Banner Fanene
329 California Ave. #407
Wahiawa, HI. 96786

7

zzSign

